Certificate and Declaration of Service

The petitioner hereby certifies that a true copy of the foregoing
document, along with electronic versions on a compact disc, was
served upon the Solicitor General and the Attorney General of the
United States and the Attorney General of the State of Arizona, by
sending copies thereof through the United States Postal Service, by
mail, to those individuals, at their respective addresses, specified
below, on or before September 17, 2021.
Merrick B. Garland
Attorney General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2000

Brian H. Fletcher
Acting Solicitor General, Room 5614
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202)514-2203

Arizona Attorney General Mark Brnovich
Office of the Attorney General
2005 N Central Ave
Phoenix, AZ 85004-2926
(602) 542-5025

Henryk S. Borecki

Certificate of Compliance
The petitioner certifies that the eight pages of this petition
contain about 1563 words, according to Version 12 of Nota Bene,
the word processing program used by the petitioner.

Henryk S. Borecki

8

